"""'"                 ~.'.....




                                                              MEDICAID




                                                    MANAGED HEALTH CARE




                                                              PROGRAMS




                                 stR.VlCl..




            .f..,
                    1j.
                      ~~~cl:la



        OFFICE                                IF   INSPECTOR GENERAL
                      OFFICE OF ANAL                   YSIS   AND   INSPECTIONS




          National Program Inspection                                             May 1987
                                                                                                 ~
                                                                                                 \-  ',

                                                                                                 .. ..




                                     Off ice of Inspector General


The mission of the Office of Inspector General (OIG) is to pro-

mote the efficiency, effectiveness and integrity of programs 

the United States Department of Health and Human Services (HHS).
It does this by developing methods to .detect and prevent .fraud,
waste and abuse. Created by statute in 1976, the Inspector

General keeps both the Secretary and the Congress fully and

currently informed about programs or management problems and

recommends corrective action. The OIG performs its mission by

conducting audits, investigations and inspections with approxima­
tely 1, 200 staff strategically located around the country.




                                 Office of Analysis and Inspections

This report                 is   produced by the Office of Analysis and
Inspections (OAI), one of the three major                   offices within the OIG.
The other two are the Off                  ice

Investigations. . OAI conducts inspections
                                                   of Audit and the Off         ice

                                          which are typically,
short-term studies designed to determine program effectiveness,
efficiency and vulnerability to fraud or abuse.




                                                 Th is   Report
Entitled " MedicaidManaged Health Care Programs, " this study was
conducted . to describe State-implemented
                                        managed care programs and
their perceived effectiveness in terms of meeting the medical
needs of the patients enrolled in these programs.
The report was prepared by the Reg                            ional Inspector General, Off ice
of Analysis and Inspections, Reg ion

project were the following people:
                                                                   VII. Participating in this
Region VII, Kansas City
                                                  Region I, Boston

Richard J. Meyer, Project Director
                                       Barry McCoy

Timothy Dold

Philip O' Hare
                                                           Headquarters
Region IX, San Francisco                                                  Annette Cameron

                                                                          Mark Krushat
Apryl Williams
                                                           penni St. Hilaire

Robert Grauman

   ':'




                                         MEDICAID

I:~                                 MANAGED HEALTH CARE

                                         PROGRAMS




 (:~i




r'~




 "0.,




          RICHARD P. KUSSEROW
          INSPECTOR GENERAL                               MAY 1987
\,,-,;1




          CONTROL *OAI-O7-86-0040
 ,\'::~'
     :\"\




                                     TABLE OF CONTENTS


                                                         Page
            Executive Summary

                Findings
            In troduction
  i.        Access/Qual i ty of Managed Care

            utilization
            Why States Implement or Terminate Programs

r,'         Rate Setting
            Cost- Effectiveness
  L:,       Program Summar ies

            HCFA Comments




 t:~:f
 t~~



(~\1
!~)
 ~\,\




                             Executive Summary
        The Omnibus Budget Reconciliation Act of 1981 (Public Law 97-35)
        prov ides States with the flexibil i ty to develop managed care
        programs in which Medicaid recipients can enroll voluntarily or
        are assigned to a provider who authorizes the recipients I care.
        In order to be approved by the Health Care Financing
        Administration (HCFA), these programs cannot exceed the cost of
        fee-for- serv ice, or restr ict emergency care, or substantially
        impair access to and quality of medical care.€
        The findings of th isreport are based on a rev iew of other
        studies, and personal discussions with a total of 250 recipients,
        providers, and State agency personnel involved with 20 of the 31
        programs approved as of September 1985. Al though 1 imi ted
        number, we believe those discussions raised relevant issues about
        managed care programs.

                                    Findings
        Cost containment was the major reason for implementing managed
 ::cj   care programs. However, State data that we rev iewed  was
        inconclus ive as to the cost-effectiveness of these programs,
        especially during the first several years of        operation.
        Other concurrent State cost containment activities (such as
        diagnosis related group (DRG) systems, selective hospital
        con tracting, and limiting payment for emergency room serv ices)
        may reduce the savings potential for managed care programs.
        Some States did not adequately consider factors such as age, sex,€
        aid category, geographic location, and third party payments
        establishing prepaid rates. This resulted in some   of the prepaid
        rates being set too high, which reduced the cost- effectiveness of
k,c
"""II
        the program.

        Most of the managed care recipients we talked to (48/60) feel the
tIl     quality of their care and access to care is the same or better
        than fee-for- serv   ice   care.
        Some of the recipients we talked to (20/60) reported having
        di ff icul ty obtain ing necessary care after normal office hours
        because they could not reach their case manager. Case managers
        agree to prov   ide 24-hour availabil i ty to   care.
        Some States do not implement managed care programs (or terminate€
        them after implementation) because they are unable to obtain€
        physician, community, or legislative support and/or because they€
        cannot substantiate that the programs are cost- effective.

                                           -1-
,".,")\
:~?\                                                                                                 ).
                                                               Introduction

           Backqround
           The Medicaid program is a Federal-State program that was created
           in 1965 to prov                      ide medical ass istance                               for   el ig ible poor people.
           Approximately 22 million low-income people are presently covered
           by Medicaid.

          Since its creation in 1965, Medicaid has grown ' to be the single
          largest item in most State budgets. Its rising costs have caused
          Congress and States to take action to contain Medicaid
Ii' j~
   expendi tures. Fiscal year 1984 expenditures  for  Medicaid totaled
          over $37 billion, the Federal share of which was $20 billion.
          Policy changes as a result of The Omnibus Budget Reconciliation

          Act of 1981 (Public Law 97-35) provide States more flexibility to

           implement innovative approaches to providing health care
                                                                                                                              for
 f':"
          Medicaid recipients. 
                                         the
                                                                States are able to receive waivers                            from
          Federal government of certain program requirements in order to
          implement changes that restrict the freedom of choice Medicaid
f"'~
          recipients have in obtaining medical        Currently, more than
          one-half of the States have received approval to alter their

                                                                                                     care.
          Medicaid programs to implement one or more types of managed

          health care programs in an attempt to reduce Medicaid costs.

          Managed care programs waive the statutory requirement of freedom
          of choice that individual Medicaid recipients have in obtaining
          services from qualified providers. Under a waiver approved by
          the Health Care Financing Administration CHCFA), States can

          develop managed care programs in which recipients enroll

          voluntarily or are assigned to a specific provider

          medical care. This provider then serves as a gatekeeper, who
                                                                                                                     for    their
1i:;2,
Ih,,"v
          must authorize any care the recipient
          may be a pr ivate physician, part of a group practice, or a Health
                                                                                                     receives. This        provider
          Maintenance Organization  (HMO). The objective of these programs
~1:~      is to contain costs by el iminat ing unnecessary hospital emergency
,~J
          room and outpatient department visits, and to coordinate patient

          care in order to eliminate the practice of recipients visiting

          several physicians (" doctor shopping     To be approved, State
          waiver requests must assure the Secretary that the costs of their
          managed care program will not exceed the costs of fee-for-

          service, the program is consistent with the objective of the
          Medicaid program, there is no restriction on emergency care, and
          there is no substantial impairment of access to and qual i ty of
          care.
t~~




                                                                                     -2-

"')'




        Managed care reimbursement systems that a State may choose to€
        develop for waiver consideration are:
 I. '       full capitation-- a health care provider is paid a set monthly€
            amount for each recipient in return for providing the needed€
            medical services; therefore, the provider incurs a degree of€
            risk for services/charges that are in excess of the capitated'€
            payment;
            partial capitation-- certain services may be paid based on a
I'          capitated rate and the provider incurs a lesser degree of
            risk; and

            modif ied fee-for-service--wi th or without case management€
i ,         fees or incentive arrangements.€
        A State s managed care program may  include one or a combination
        of the above reimbursement systems.   For example, States may
        elect to reimburse HMO-type providers with a fully capitated
        payment, or designate physician case managers who receive a
        modified fee-for- service plus a case management fee.

        Case managers are physicians who are responsible for personally€
        providing general medical care for their clients, and€
        coordinating and monitoring specialized medical care and€
        emergency room treatment. The case manager must provide service€
        24 hours per day and is required to authorize all types of€
        medical services provided by other physicians and entities on
        behalf of their assigned recipients. They can be paid up to
        per month per patient for managing their client' s care.
        Purpose
        The purpose of this inspection was to describe State-implemented
~:t~    managed care programs and their perceived effectiveness in terms
        of meeting the medical needs of the patients enrolled in these€
        programs. The objectives were to review reports on how States€
        determine whether managed care programs are cost- effective, and€
        to determine how prepaid managed care   rates are established.
        also surveyed respondent attitudes about: (1) access to and
        quality of care; (2) changes in utilization patterns; (3) why
        some States have not implemented managed care programs; and (4)
        why some programs have been terminated.
        Methodoloqy
        At the time of our study, in September 1985, 31 managed care
        programs were in operation.  The programs were available to about
        3 million of the 22 million Medicaid recipients in the United
        States.

                                       -3-
! ' ':,' ,::

j'         ,




                Onsite visits were made to 20 programs located in Missouri,

                Michigan, Wisconsin, Kentucky, Colorado, Kansas, California,
                Utah, and New    York.
                                     These States were selected because they have
                most of the approved programs; some of these programs have been
                in operation long enough that they have appli~d for a renewal;
                some had terminated their program; and some chose not to ask for
                a renewal of the waiver.
                We also contacted two States, Georgia and Mississippi, that at

                the time of our inspection did not have an operational managed

                care program.


                Six of the 20 programs which we looked at were physician case
                management programs. Four of these programs paid a case
                managemen t fee. Two did
                capi tated   programs. Capi
                                              not.
                                               The remain ing 14 programs were
                                                 programs pay the provider a set
                                              tated
                fee for the services he/she agrees to provide to his/her Medicaid
                cl ien ts. A br ief summary of the 20 programs and whether they
                were approved under Sections 1915(b) or 1115 of the Social
                Secur  ty Act, is included in the appendix.
                The study was conducted by reviewing waiver applications and

                renewal requests, and analyz ing studies conducted by States and
pc'
                others.  Personal discussions were held with 60 recipients;
                physicians; 31 other health care providers, such as HMO' s and
                clinics; 34 advocacy groups; 38 State Medicaid staff; 10 Health
                Care Financing Administration staff; and representatives from
                G~O, OMB, and the National Governors         Association.
                                                                    The
                respondents we talked wi th were randomly selected from the
                programs included in our study, and do not represent a
                statistically valid sample.
                Managed care recipients were asked about their overall attitudes

                and opinions concerning the effects that managed care programs

~;:!t!
"",,'1          have had on their access to     care.
                                                   We asked them to compare the

                quality of care they are receiving under the managed care program

                to the quality of care they received under fee-for- service.
~i~
                We also asked managed care providers, advocacy groups, State and

                Federal Medicaid staff, and other government representatives for
                their opin ions on the effects of managed care on access, qual i ty
                and utilization of medical services.




                                                      -4-

,'
,':..~)




                       Access/Quality of    Managed Care


          The study found that the elements that most affect the attitudes
          about access to medical care and the qual i ty of that care are
          physic ian availabil i ty after hours, restr ictions on emergency
          room care, how recipients are assigned a case manager, and how
          referrals for spec ial ized care are handled.

          Section 1915(b) of the Social Security Act provides that a
          Medicaid State Agency, in applying for a managed care waiver,
          must document that reasonable access to quality services is
          assured for recipients enrolled in an approved case management€
          system.
          We asked 60 Medicaid recipients enrolled in var ious types of
          managed care programs whether  it was easier for them to receive
          medical care now than before they enrolled. , Of these, 48 (80
 LTi;'
 r ,€     percent) said that access to medical care is the same or better
.L8
          than before they enrolled in a managed care program. Twelve (20
          percent) said it is more difficult for them to receive medical€
          care now.€
                                   ACCESS




F9J
r~~




t~'




          Our findings corroborated an internal study conducted by the
          State of Kansas. It found 67 percent of the managed care
          recipients said access to care was about the same, 13 percent
i\';."~   thought it was easier, and 20 percent said it was more difficult€
          for them to get medical care now than before they were enrolled€
          in a managed care program.€




                                         -5-
  :,~,€
   :' ~j




                                      PROVIDER€
                                     AVAILABILITY€




  c-.€



1"'€
            Most (71 percent) of the 60 recipients we talked to had no
            problems contacting their case managers after    hours.
                                                                  Some of the
            statements made by recipients who had problems contacting their
            case managers after hours were:

                 Can t get in touch with a   doctor.   Just get their answering
                service. "
                 One $unday evening I needed care and it was difficult to get
                in touch with my doctor to get approval to go to the hospital
f\f)€
  :,~i€
                emergency room.
!-J.i\1r€

            An internal study by the Michigan League for Human Services
            showed that 30 percent of their managed care recipients needed to
            contact their doctor after hours.    Forty-seven percent of these
            were assisted by their case manager. Thirteen percent waited for
            the office to open or ' handled the problem themselves. Twenty-
            five percent tried to call their case manager and did not get an
            answer so they went to the emergency    room. Fifteen percent did
            not know where to call and also went to the emergency room.
            Based on the findings of the study, 40 percent of the recipients
            ended up at the emergency room because they could not reach their
            case manager even though case managers agreed to be available
            hours a day.
0'?:\\€




                                             -6-€
i' ;
                            QUALITY OF CARE





,I'
:f'




      A small portion (19 percent) of the 60 recipients we talked to

      felt the care they are receiving under managed care is worse than

      the care they had been  receiving. They complain about not .being
      able to contact their case manager after hours, transportation
      problems resulting from being assigned to a doctor other than
      their regular doctor, and referral problems.
      Ninety percent of the 63 physicians we talked to felt that the

      quality of the care received by managed care recipients was as

      good or better than the care they received  before. Ten percent
      felt it was worse, and related this decline in the quality of the
      care to the recipient being assigned to a doctor other than the

      physician who had been treating them regularly. Of the 60

      recipients we talked with, 80 percent had selected the plan of
      care they are using and twenty percent were assigned.
      An internal study by Kansas reflected similar  findings.
      interviewed physicians who participated in a managed care
                                                                They
      program. Seventy percent of the physicians interviewed thought
      the quality of care was the same, and 20 percent said managed

      care improved the quality of care because continuity of care was

      improved. The remaining 10 percent thought the quality of the

      care rece ved was worse.

      The regulations preclude States from restr icting freedom of
      choice if it results in a reduction in the quality of services
      provided.  One of the States we visited issued restricted
      Medicaid cards to recipients who did not enroll in the managed

      care program, which denied payment for these recipients ' medical

      care except in emergencies. HCFA did not approve the renewal
      request for this managed care program because of this
      restriction.

                                     -7-
        Referrals€
        Recipients and case managers were asked to comment on the
        referral process.   About three-fourths of the recipients who
        wan ted a referral to another doctor or a spec ial ist were
        referred.   The reason most often given by the case manager for
        not making the referral was that they felt they could handle the
        problem. The doctor would talk to the patient and try to
        convince them that the referral was not necessary:
                I tell them the services   I feel are necessary. If   they
            ins iston doing something di fferent,      I suggest they get
            another doctor.
             We tell them what we    feel is necessary.
                                                      If they choose to
            do something else they have to pay for it themselves.

                For those in the gray zone I make the referral to avoid a
            lawsui t. "
        Private physicians and other health care providers don t like the
        procedures for making referrals to other doctors because (1) they
        feel it involves too much paperwork, and (2) once a referral
f\""€
        made, the referr ing phys ic ian feels it should not be necessary
        for him/her to continue to follow- up on the referral. Some
        physicians involved with an HMO or other type of capitated plan
        feel they are res tr icted from making some referrals they feel are
        necessary because of the added cost       of these referrals.
        Emergency room restrictions

        Patients, and providers expressed    concerns about monitoring
        emergency room usage. Physicians are concerned about their
        liability when the emergency room calls and asks them to
        authorize or refuse treatment without seeing the patient.
:Co€
:"i~€

        Patients are also unhappy with attempts to monitor their
        emergency room usage. ' Some of the comments made by recipients
        were:
             I don ' t like the plan, because by the time I call my      sponsor
            to see if he thinks it' s an emergency my children and       I could
            be dying or dead.
             When I wen t to the emergency room, I had to call my baby I
            sponsor to get his approval first. I don t think this
            program should apply in emergency cases.




                                           -8-€
 :\
;."'",,\
)~~\




           The effect of these efforts on reducing emergency room usage are
           covered in the utilization section of this report.
           Complaint Systems

           Several States have implemented a system for monitoring client
           complaints and problems about access and quality of care and
           recipient attitudes about the program they are using for their
           health care. The system typically consists of a phone number
           that the recipients can call if they have a complaint or a
           problem. Two of the States we visited said these monitoring
           systems are not providing the amount of feedback on recipient
           attitudes they thought they  would.   In one State, 80 percent of
           the cl ien ts did not know about the number. A busy signal study
           conducted by the phone company in another state found that during
           a typical one-week per iod, over 3, 500 calls to the number to call
           about complaints, problems or provider questions could not be
           completed because the lines were tied  up.   Those clients that do
           reach the complaint off ice complain most about the restrictions
           on emergency room usage and being assigned to a doctor other than
           their regular doctor.

           Summary
           More positive recipient attitudes, and more appropriate recipient
           util ization can be effected if the States take action to address
           the problems of recipients being unable to contact their case
           manager after hours, being assigned to a doctor other than their
           regular physician, and not being able to get in touch with
           someone if they have a problem.
           While physicians had positive comments about the program, and see
           managed care as a way to provide continuity of care, reduce
           overutilization, and maintain or increase their patient load,
           toey continue to have concerns about their liability when they
           are asked to pre-authorize emergency room  visits.

i, i




B~i




                                          -9-€
,'
 ;",
;';;'€




                                   Utilization€

          We found that many of the physician case managers and State
          agencies we talked to did not know the effect of their managed
          care program on utilization of health services.

          Of the 63 physicians we talked to, 45 perceived no change in the
          number of office visits by recipients enrolled in managed care
          programs. These physician case managers felt confident about
          responding to this question as most had provided care to the same
          patients on a fee-for- service basis. Eight physicians thought
          the number of office visits decreased and five physicians thought
          office visits had increased. The remaining five physicians did
          not know.

          About one-half of the physician case managers thought the number
          of visits to emergency rooms and out patient departments had
          decreased as a result of Medicaid recipients being enrolled
          their managed care program. Forty-four percent of the case
          managers didn t know whether emergency room usage had changed
          even though they are responsible for authoriz ing all care,
    '7;
          including emergency room and out patient services.
          The 60 recipients we contacted were also asked how often they see
          a doctor now compared to before they were enrolled in a managed
          care program. The following chart reflects their responses:



                                 DOCTOR VISITS




t\~l€




"i
\W:)€




                                      10-€
,.', ,




              Two       of     the States we vis i ted compared
                                                       emergency room usage before
              and after the ir  programs were implemented.          them found                                  One   of
              that for a 12- mon th        emergency room expendi tures decreased
                                                          per       iod,

              36 percent for managed care                                  clients.
                                                       They were unable to tell
              from their data whether this was because
                                                             managed care, or the                       of
              result    other efforts at reducing emergency room usage. A
                              of

              hospital administrator said the decline in his hospital was due
              to phys  ians becoming more sens it i ve to the need to do all they
                               ic

          can in their                        sending their patients to the
                                             office       instead          of

          emergency room.
          The other State had anticipated that their managed care program
         would produce significant savings in emergency room usage. These
          savings did not mater ialize because the State changed
         Medicaid reimbursement policies for emergency room care for all
                                                                                                                           its
         Medicaid recipients. The State no longer pays the emergency room
         rate for routine medical care provided in the emergency room.
I, "     Hospitals are paid the standard office visit fee-for- service for
         routine care. This has reduced emergency room usage by all
         Medicaid recipients because the hospitals only provide emergency
         care for these                               recipients.
                                            Recipients needing routine care are
         referred for an     office                                 visit.
                                               This State compared emergency room
         usage for managed care recipients to those not enrolled in the
         program and found the impact on emergency room use to be
r"'
         negligible, because        of the overall reduction in emergency room
         utilization which resulted from the reimbursement changes.
         The emphasis in the Medicaid program fee-for- service
         reimbursement program is on monitoring overutilization to detect
         ins tances where phys ic ians prov ide unneeded serv ices, since
         reimbursement for the physician is based on the number and type
         of            serv ice        bi lIed to the program.                             Phys ic ian bill ings are
         mon i tored to identify those phys                                     ic        ians that prov ide more than the
         normal amount                        of       services per patient and/or at a higher than
         normal cost. Monitoring systems for prepaid health plans must
         look at underutilization, denial


                                                                                care.
                                                                                     of    services, poor quality
         care, and excessive barriers to             These physicians are paid
         the same amount for each patient whether or not the patient
         provided medical care. Physicians in these prepaid plans should
         be monitored to identify those physicians that are providing less
         than the normal amount      of services per patient. Systems to
         provide this type      of monitoring were not in place in the programs
         we vis              ted.




I."
                                                                                11-
" '




                              Why States Implement€

 " 1



                      Terminate Managed Care Programs

        State Program Directors said that Medicaid cost containment was

        the major reason for applying for a waiver to implement managed

        care programs, but not the only       reason.         There was an expectation
        that continuity of care for the recipient as a result of managed
        care would result in better health care delivery to Medicaid
        recipients and reduce Medicaid       costs.
        was greater control of fraud, abuse, and waste
                                                            Another important factor
                                                                    in the Medicaid
        Program. Recipients would not be able to use unnecessary
        services, and the provider would have an incentive not to exceed
        the norms of his/her peer      group.          In states with a county
        operated system, managed care was seen as a mechanism to return
        program control to the county.
        State agency efforts to successfully implement a waiver involved

        long-range planning of one to three years for all but one of the

        waiver programs. Seven of the nine States we vis    ted had to make
        leg islative changes to author ize these programs. Seventeen (50
        percent) of the advocacy groups we talked with were extens ively
        involved  in the States ' waiver request( s). Case workers were
        used to explain the choices available to the         recipients.
                                                                    Fiscal
        agents were extensively involved in implementing about a third of
        the managed care systems. HMO' s were also involved because of
        their expertise in rate setting.

!~!M
        Physician support of the case management plan was essential 

        order to get the plan approved. Ninety percent of the 63
        physicians we talked to stated that their Medicaid patient load
        had either remained the same or increased as a result of partici­
        pating in the managed care program. In one State where the
        managed care program would have limited their patient load to

          500 clients, the physicians were able to get an injunction
        against the program until this restriction was raised to 2, 000
        patients.
        To ensure physician participation, one State selected a waiver

        proposal submitted by local physicians. The State s decision in€
        favor of the physician plan gave the State the opportunity to

        enroll private physicians who would otherwise have been opposed

        to a managed care program. This was very important since
        resistance to initial waiver applications in three States was
        from physician groups. In one case, physician opposition to the


                                           -12-
'.'




       waiver was covered in the local press to the extent that
       became a pol i tical issue and was part of the reason the waiver
       was not renewed.

       Only three waiver program directors said that ' they had no
       recipient enrollment problems. The most common type of waiver
       enrollment problem was the recipient who did not select a
       primary care physician or HMO         provider.
                                                When recipients did not
       select a case manager, the program assigned clients.
f'C
       Another problem faced by waiver program directors                     is getting a
       waiver approved or renewed. Out of 54 waiver approval or renewal
       requests,                43 percent have either been withdrawn or disapproved by
       HCFA. The primary reason for not approving a waiver program
I, )
I"
       because of insufficient cost savings documentation. State
       respondents said that initially a receptive Federal environment
       and the cost cutting efforts by State Medicaid programs made
       fairly easy to get approval of a waiver proposal. Now HCFA is
       requiring more cost- effectiveness documentation for              initial
       waivers and waiver      renewals.                 This change in requirements to
       receive approval for a waiver is very frustrating for the States.
       They feel they need more specifics on the documentation required
       to prove cost-    effectiveness.                   Two States included in our study
I'
f"'1   do not have an approved managed health care             waiver.
       been a lack of legislative initiative in each State, although
                                                                                There has
       there have been some preliminary discussions on cost savings
       coming from the legislature in one of the States. In one of the
       States, the State leg islature has been approached several times
       by the Medicaid State Agency for support of a waiver program.
       Summary
       Our study found that States are interested in implementing
       managed care waivers because they think they can save money,
~~:l   improve care, and better control recipient and provider fraud and
       abuse.  The problems they have in trying to implement or renew a
       waiver are:
t0~	
           Physician opposition if they feel it may reduce their
           Medicaid patient load.

           Advocacy groups opposition to restrictions on recipient
           freedom of choice.

           Lack of leg islative support to make the changes required to
            implement the program.

           Inability to provide data that proves the program is cost-
           effective.    HCFA is requiring better cost-effective
           documentation now than when the waiver legislation was
           or ig inally implemented.
                                             -13-
..: "''   '




                                         Rate Setting
              Our study found that States use a variety of methods to establish
              their prepaid     rates.
                                    Several States used the prepayment
              information from another State to set their capitation     rate.
              State, since their experience with prepaid plans was limited,
                                                                              One
              relied primarily on Statewide fee-for- service data and prepaid
              plan data from another State to establish the rates for their
              1115 demonstration project. A spokesman for that State said that
              they had overestimated hospital costs for the AFDC category and
              that Statewide Medicaid cost containment efforts were not
              correctly estimated when the prepaid rates were   set.
              resulted in the capitation rates being set too high.
                                                                     This
i ,
C "

              In some State plans, factors such as age, sex, aid category and
              geographical location were used to set capitation rates. This is
              similar to the process used by HMO'    s.
                                                      In other States, a fee-
              for- serv ice payment amount was used. Those States that did not
              have experience with prepaid capitation programs often relied on
              professional consultants to develop the capitation rates.
              Consultant fees for these services were as much as $70, 000 which
              was an additional start-up cost.
r"'€

              In one State Program, HCFA approved a capitation rate based on
              100 percent of fee-for-service and an incentive pool. HCFA would
              not renew the waiver because the capitation rate and incentive
              pool payment was more than 100 percent of fee- for- service. The
              State believed that the amount paid from an incentive pool based
              on projected savings should not be considered as part of the
              capitation amount, even if the ' projected savings did not
              materialize and resul ted in the program costing more than under
O'S'l€
              fee-for- serv   ice.
F\\€
t\~;1         Another reimbursement methodology involving local county control€
              of a program was des igned to save 5 percent over fee-for- serv ice.
              The State calculated the fee-for- service costs by aid category
              covered in the program and determined that the payment to the
              county would be 5 percent less. This should have resulted     in
              savings of 5 percent; However, 1. 2 percent of the 5 percent held
              back by the State was paid to the county for administrative
              costs.   This reduced the maximum savings to 3. 8 percent less than
              would have been paid under fee-for-service. The 3. 8 percent
              projected savings were further reduced by other expenses such as
              start-up costs, and duplicated administrative costs, such as the
              amount paid to the fiscal agent to process enrollments and
              disenrollments, pay providers, and produce report information.
              The State and the county both provided these serv  ices.  Also, the
              county hired a medical director and other staff to administer the
              program. The county budgeted their administrative costs at
              between 3 and 4 percent but received only 1. 2 percent from the
              State.   The State does not feel they can provide the county more
              than 1. 2 percent since they still have substantial fixed costs
              for the program. The resul t is that the 5 percent sav ings
              projected in the waiver request when the rates were established
              are not materializing.
                                              -14€
                                                                                      ' ,€
       Determining the capitation rate also involves deciding how
       collections from pr ivate insurance and other third party payers
       will be handled. One State plan provides the option for the
       provider to collect the amounts from the third party or let the
       State do it. If the provider collects the third party payments,
       the State projects the amount that would have been collected from
       the third parties for the recipients covered by the provider and
       reduces the capitation rate                  accordingly.
                                                  The State does not
       track third party collections to determine whether the amount
       projected equals the amount actually collected.

       The current trend                            in    rate setting is to reduce Medicaid spending
        by setting limits on the amounts paid to a provider (prepaid
       plans), reducing the use of expensive emergency room care, and
       eliminating doctor shopping, so that more services can be
       provided for more            clients.
       reduce the program costs of the services provided. Our study
                                                                          Most of these efforts are designed to
       found that the same effort is not being directed at reducing
       administrative costs. In fact, in some cases, these costs are
       increasing.                     Additional systems are being developed, consultants
                                                                                             extra staff are
                                                                                          etc.
       are being hired to help with the rate setting

       being hired to enroll recipients, answer questions,                                              While
I' ,
       setting lower rates for the amount paid for the service provided
       Medicaid rec ipients can reduce Medicaid program expenditures,
       these reductions may be more than offset by increases in the
       administrative costs of these programs. These increases should
       be a consideration                              in  the rate setting and          in projections of the
       cost- effectiveness of these programs. The States should make the
       same concerted efforts to reduce both administrative and program
       costs.
       Some managed care programs that we looked at provided coverage
       for AFDC eligibles and SSI Medicaid-eligibles~ Others restricted
       coverage , to only AFDC mothers and children. Medicaid
       expendi tures for the AFDC population for fee-for-service are
       percent of the total expenditures, as compared to 72 percent for
       SSI Medicaid-eligibles for fee-for- service and nursing home
       costs.   Therefore, in order to realize the maximum amount of
       sav ings for these programs, States should be encouraged to
       include SSI Medicaid-eligibles (not in nursing homes) in their
       managed care programs.

           ELIGIBILITY                                                    EXPENDITURES




                                                                                    IWI                      OTHER
                                         OTHER 67.
                                                                        III
                                                     15-€
(.., ,                                                                                            $ (





                                                     Cost-Effectiveness
          Section 1915(b) of the Social Security Act provides
          waiver request to implement a 1915 (b) case management program- the
                                                                                                 that in its
          State must present sufficient documentation that reasonably
          supports a conclusion thdt the project will be cost- effective and

         efficient and consistent with the objectives of the Medicaid

         program. Total costs must be shown under the waiver for program
         benefits, administrative costs, systems modification, marketing
         incentives and similar                               items.
                                          These costs and savings must then
         be compared wi th costs and sav ings which would have been incurred
         in  the State for like services for recipients without a waiver.
         Unlike the 1915 (b) waivers there are no                                regulations requir ingthe
         1115 demonstration projects to be cost-
         Off ice          approves the appl ications                   and
                                                                                effective. HCFA
                                                                             moni
                                                                                                 Central
                                                                                  tors all demonstration
         projects.
         States Projected Savings


         We reviewed data that three of the States with 1915(b) physician€
         case management programs presented to HCFA during the first

         several years of operation to support the
                                                                                  ir   concl us ion of cos
         effectiveness. As shown by the following statistics, the
         reported savings based on States ' projections did not materialize
         or included sav ingsfrom other sources.
                  Kansas Pr imary Care Network
                              Case Management Fee                              $839, 196.
                              Reported Sav                  ings                471, 581.
                                          Added Cost                                            $367, 614.

                 Colorado Phys ic ian Sponsor
                      Estimated Sav ings                                     $2, 663, 000.
                              Actual added Cost                                                 $988, 800.
                 Michigan Physician Primary

                   Sponsor Plan
                                                 1982               1983
                             Admin. Costs                                      $264, 492          $ 593, 844
                             Case Mgmt. Fees
                                        141              441, 603
                                   Program Costs                               $267, 633          $1, 035, 447
                              *program sav ings                                      842              821, 382
                                   Added cos t                                $(261, 791)                214, 06 5


                             **Less projected HMO savings

                             Sav ings/Loss
                                         HMO sav            ings
                                                            with

                 *The same projected program savings of $5. 58
                                                                               -121, 065
                                                                             $ (140, 726)
                                                                                                     272, 889


                                                                                             per recipient
                                                                                                          58, 824

                  per month was used for both years.
                 **HMO Sav ings were based on the theory that HMO enrollmen
                      increased because of compet                      it ion caused by managed ca re.
                                                                   -16-
  :.;
/:,-,-",




             Kansas did a compar ison study between clients enrolled in a
            managed care program and cl ients  not covered by managed care
            programs.   The study covered 12 months pr ior to, and 12 mon ths
            after, implementation   of    the managed care program. Since other
            major program changes were implemented at the same time, the
            compar isons were based    on  the percentage of increase or decrease
            in secvices between counties with or without managed care
            programs.
           The study showed a $20. 23 savings per year per recipient in the
           coun ties with managed care programs. However, these sav ings did
           not take into account the $3 monthly per client case management
           fee paid to managed care physicians, or additional ongoing
           administrative costs caused by managed care, such as the State
           central office administrative costs and a monthly fee paid to the
            fiscal agent.        Also, the projected savings did not include the
           initial cost       of  over $150, 000 paid to the fiscal agent, or the
           salary       of a new staff person added to monitor the managed care
           program.
            If just the $36 per year cost (12 months x $3)   of the case
           management fee is added to the average yearly cost per recipient,
           the result is a yearly increase in cost   of $15. 77 per cl ient for
           managed care recipients ($36. 00 - 20. 23 = $15. 77) rather than a
           savings  of $20. 23 per client. Projecting this increas' e to the
           total managed care population for this State (23, 311 recipients)
           results             in an         additional Medicaid expenditure
                                                                                                          $367, 614 over
           fee-for- service                       in a 12-month                     period. This
                                                                                                     of

                                                                                            increase does not
           take into account                           any of           the other addi tional administrative
           cos ts         incurred with the project.
           The Colorado waiver renewal request projected that the program
           would save $2, 663, 000 for the AFDC-Adults and Children and SSI
           Medicaid-eligibles covered by the program. The State collected
           data on actual monthly Medicaid expenditures for the 12 months
           pr ior to implementing the program and used this to project future
           savings.                Estimated savings were based
                                                                                            on   projected enrollment in
           the program and reduced cost
                                                                               of    services provided by the program.
           We reviewed actual monthly expenditures for these Medicaid
           recipients for 12 months prior to implementation          of  the program,
           and 12 months after implementation. The data showed that the
           monthly cost per recipient had increased $1.                  the $1. 03 per
           recipient per month is projected to the State s estimated 80, 000
                                                                                                   03. If
           Medicaid-el ig ibles, the additional yearly costs      of    the managed
           care program would be $988, 800, rather than a savings
           $2, 663, 000.




                                                                                    17-

,", ':'




           Michigan compared the cost of services for clients that were on
   I.. .
           fee- for-   service to the ones enrolled            in   managed care. During
           1982 and 1983, the program lost $475, 856 after costs of operation
           and start up costs were considered. To offset this, the state
           calculated a dollar savings for the managed care program based on
           increased enrollment in HMO programs. The HMO I S are not part of
           the managed care system               in this State.
                                                     This produced a net
           program savings                in 1983.
                                      The theory was that competition created
           for the HMO' s by the managed care program caused HMO' s to
           increase thei r efforts to enroll rec ipients.
 i .


           These three States had collected more cost data than other States

           in order to evaluate the cost- effectiveness of their programs.

           They are continuing to work with HCFA to explore methods of

           making their programs cost-effective. One example of this is in
           Kansas, where they are looking at reducing or el iminating the
           case management fee.
           Summary
           Cost containment is the primary reason States implement managed

           care programs. Our study found that the following problems make

           it difficult to substantiate a clear finding of cost-

 ro'
           effectiveness.
               In order to be renewed beyond the or ig inal 2 years the
               program must show that total costs, systems modifications,
               marketing and administrative costs do not exceed the costs
               that would have been incurred without the                 waiver.
                                                                    Absorbing
               these costs in these first 2 years of operation makes it
               difficult to show the program is cost-effective. Spreading
               these costs over more than 2 years would make it eas ier
               prove cost- effectiveness.
               Paying a case management fee increases program costs.
               Eliminating the case management fee could make programs more
               cost-effective. One program would have saved about $470, 000
               if they had not paid a case management                 fee.
                                                            Paying the case
               management fee r~sulted in the program losing over $360, 000.
               Establishing prepaid fates that reflect the population being
               served under a capitated plan is difficult to do and also
               affects the cost-effectiveness of the program.




l;i8




                                                       -18-

\. .




                                                                       Appendix

                              Summar ies of Reviewed Managed Care Programs

                                   1915 (b) Case Management Programs



       Kansas Pr imary Care Network
           This program covers 23, 000            AFDC recipients in two rural
           counties and one             urban    county.Physician case managers are
           paid the regular             fee-for-service plus a $3 case management
           fee per enrolled             recipient per month. The program is being
           expanded to five             other counties.
       California Primary Care Case Management
           Two organizations provide care to about 2, 000 AFDC and SSI
           Medicaid enrollees  in Los Angeles and San Diego counties.
           Reimbursement is capi tated at 95 percent of fee-for- serv ice.
('C        Ambulatory patient care con tains a $10, 000 stop loss
           provision with the exception of dialysis services. The State
           plans to expand the program.
       California Selective Hospital Contracting

           All hospitals Statewide, with the exception of psychiatr ic
           hospi tals, rural hospitals and areas in other pilot projects,
           are included in the program. The program provides all
          inpatient hospital services for 2. 8 million eligible
          recipients. Each hospital is reimbursed a negotiated per
           diem rate, which   determined by using fee-for- service data.
                                        is

          The program does not cover doctor s office visits.
       Michigan Primary Physician Sponsor Plan

          Approximately 70, 000 AFDC recipients in a large urban
          population county are enrolled in the program. Reimbursement
          is 100 percent fee- for-service plus a $3 per recipient per
          month case management
          renew the program.
                                                fee.
                                       The State is working wi th HCFA to

       Michigan Capitated Ambulatory Program

          This program serves approximately 4, 500 rec ipients. All
          Medicaid recipients are covered by the program. The
          providers are paid a capitated rate based on 100 percent of
          fee- for-service. They are at risk for provided services, but
          not for inpatient                  costs.
                                    Additional reimbursement
          provided if inpatient hospital costs are reduced by
           percen t.


                                                      -19-
,"'"
 ';;""'-\




            Michigan 6-month HMO Program€

                  This waiver covers two HMOs that did                                         not         meet the 75/25 ratio
                  of private/public patient                                    mix. All categories of aid are,
                  covered wi th the exception of general ass istance and
  I..


                  medically needy. There are almost 42, 000 recipients                                                      covered
                  by this program. The reimbursed rate                                               is 90 percent of         fee­
                  for- serv ice.
            Michigan Primary Mental Health Clinic Sponsor Program€

                 All mental health outpatient services and day treatment
                 programs are included in the program. The purpose is to
                 reduce costly insti tutional
                 except for
                                                    Coverage is Statewide,
                            one rural county, and applies to all Medicaid
                                                                                 care.
                 recipients in need of mental health services. Reimbursement
                 is limited to a $42 per day maximum capitated rate.
            Kentucky Ci ticare
                A Health Insuring Organization established a prepaid
                capitated program in one large urban county. About 40, 000
                AFDC and medically needy recipients were covered under the
                waiver.   Providers were paid a capitated rate of 95 percent
                of fee- for- service plus a provider incentive
                chose not  to renew this waiver.
                                                                     The State                                      pool.
            Colorado Pr imary                  Care Phys                   ic ian Program
                This is a Statewide physician case management program. The
                physicians are paid on a fee-for- service  basis and also
                receive an incentive pool payment twice a year. No case
                management  fees                         are paid.
                                            All AFDC adul ts and children not
                enrolled in an HMO are required to enroll in the program.
f:N!
t:fu\'i         total of 53, 000 recipients are enrolled.
            Wisconsin Mental Heal th                                Gate Keeper Plan
   \':1

                Statewide, except                             for      two large urban counties. It covers
                420, 000 recipients who can receive outpatient and
                profess ional day treatment serv ices, pI us insti tutional care
                for       persons 22-64 years of      is a fee- for- service    age. This
                program with                    no    The objective is to
                                                         case management                fee.

                contain costs, curb abuse, and provide integrity to the pro-€
                      ider.

~\8j




                                                                                -20-

     wiscons in HMO        Preferred Enrollment In                 tiat ive
lJ
               Thirteen HMOs with 120, 000 AFDC recipients in two large urban
               counties are included in the program. They operate under
               risk contracts and are paid a monthly capitated
               State plans to apply     for
                                                                           The
                                            an extens ion of the waiver and is
                                                                                    rate.
               contemplating incentives     for providers to lower contract
               bids.
     Utah Selective Hospital Contracting

               This program was never implemented, based on a study that
               recommended a DRG-related system ' over the selective
               contracting model. It  was determined that selective
               contracting serves only as a temporary means of controlling
               costs rather than a long-term                    solution.
                                                        This program does
               not cover doctor s office visits.
     Utah DRG Method        for   Hospital Re imbursemen t

              The DRG program is Statewide and covers all hospital
               inpatient services.     It does            not     cover emergency room or
              outpatient services. The State adopted HCFA' s DRG codes with
              some modif ications.     The program does include any stop-
                                                                       not

              loss provisions or incentive                pools.
                                                   Preliminary data shows
              inpatient costs have dropped for each of the last 2 years.
     Utah Soc ial      Services Prepaid Health Plan

              This is a Statewide program that covers all Mental Health
              Clinics. About 60, 000  recipients diagnosed as
              handicapped/developmen tally disabled, men
              functionally impaired, or substance abusers are covered under
                                                                             tally ill,
              this program. The State plans to continue this program.
     Utah Choice of HMO or Primary Care Network

              This program offers the recipient the choice between one of
              two HMOs or a physician case manager program. The program is
              offered Statewide, with the exception of rural counties which
              do not have HMOs. All 43, 000 Medicaid recipients are covered
              under the program. The physicians are paid 100 percent of
              fee-for- service. No case management fees or incentive pools
              are included in the program. Each of the HMOs has its own
              rates based on the recipient' s eligibility category.
     New York 5-Month HMO Lock-In Program

              This program involved two HMOs in two suburbs. Only 71 AFDC
              recipients were enrolled in these two HMOs. Due to the small
              enrollment, the waiver was terminated after 2 years of
              operation.

                                                  -21-
 . ..
 ~~\




                                            1115 Demonstration Projects


           Missour              Prepaid Heal th Project

                      This program provides a choice of pre- paid health plans or a
                      physician sponsor plan. The case managers are paid a $1.
                      case management        fee.
                                             The program covers one large urban
                      county with 27, 500 AFDC and unemployed parent recipients.
   , 0
                      Expansion to other urban counties is anticipated.
           New York             Monroe   County Medicap Plan
 i )
                      Since  Monroe County had experience with HMOs, the State
                      received a demonstration grant to test enrolling the Medicaid
                      population in a prepaid capi tated program. The rates are
                      based on 95 percent of fee-for-          service.
                                                                projected enrollment
                      is 58, 000 recipients. Expansion will be considered based on
                      the results of the program.
 f" ,

           California Santa Barbara Health                Initiative
                      Eligible recipients in this county total 21, 000. All
 r~"€                 categories of aid are included under the waiver. Any health
                      care provider who wishes to receive payment for services
                      rendered to recipients in this county can do so only by
                      contracting with the Health         Initiative (HI).
                                                                    The capitated
                      payments to the HI are 95 percent of fee-for-       service.
                                                                              This
                      has been converted into monthly rates per recipient and aid
                      category.  The majority of recipients have case managers that
                      are paid this monthly rate based on the number of recipients
                      assigned to them.
fJ~\;i€
 \,;\oj€
c'hJ€
           California Monterey County Health               Initiative
                     This program was developed as a demonstration project to test
r~1€                 the feasibility of a competitive case management medical care
                     model. The Medi-Cal recipients in this county totalled
                     26,      000. All
                                  were included in this project. A $3 per
                     recipient case management fee was paid to the case managers.
                     The project is now bankrupt.




i;,€


                                                      -22-€
?~:
.'.:"')
'\,,'.,




                         Health Care Financing Administration
                                      Comments on
                    OIG Draft Medicaid Managed Health Care Programs

          The Heal th Care Financing Administration(HCFA) was br iefed on
          the initial findings of the study prior to preparing the draft
          report, and later given an opportunity to comment on the draft
          report.  Their comments have been very helpful in preparing the
          final report.  Some of the major areas addressed by their
          comments were:
             The point was made that this report was not clear as to
             whether the data we looked at showed that these programs cost
i .          more than they save, or that the data is inconclusive. The
             report has been clar if ied to state that the data we looked at
             was inconclusive in showing whether these programs are cost-
             effective.
             Concern was expressed with our finding that elimination of
             the $3 per month case management fee would make the programs
             more cost-effective. HCFA made the point that if this does
             not result in exceeding the cost of providing similar
             services under the ongoing State Medicaid program, the
             statutory and regulatory requirements are  met. While we
             agree, we still feel States should be encouraged to follow
             the example of two States offering other incentives to
             encourage physician participation, saving $2 million per year
             by not paying a case management fee, and thereby increasing
             the cost- effectiveness of the program.

             Conc~rn was expressed , with added administrative costs that
             would result from modif ing the State Medicaid Management
             Information System (MMIS) to assess cost- effectiveness and
 '1,         qual i ty of care for managed care programs. One of the
             primary ~indings of our study was that no systems exist to
             measure the cost-effective of these programs or if they
             provide quality care to the recipients participating in them.
ffi\
             While implementing systems to do this will no doubt add to
             the administrative cos, t of these programs, we believe the
             costs would be justified, just as they are by other ongoing
             State Medicaid Programs.
             In response to our finding that States feel they need more
                          istance in areas such as the cr iter ia used by
             techn ical ass
             HCFA to evaluate cost-effectivenss, the point was made by
             HCFA that they do provide this assistance but that there is a
             limit on how much they can do and still meet the statutory
             requirements of providing States with maximum flexibility to
             establish these programs. We have clarified this section as
             to the type of technical assistance we are suggesting.


                                        -23-
       , ,




              The point was made that our suggestion to include the SSI
              Medicaid population would not result in as large a savings as
              indicated, since much of the SSI Medicaid cost involves
              nursing home expenses that would not be included in a managed
              care program. We have clar if ied  this
                                                    sec-tion of the report.
              Several comments' wer e made about areas of the report that did
              not specify whether the type of program being discussed was a
              waiver approved under Section 1915b or 1115 of the
              have corrected this.
                                                                  Act.
              Other comments involved suggested clarification and word
              changes which we have made.




       ;Lo€


:~1€




                                         -24-€
